                                         AR 09-001


     FEDERAL TRADE COMMISSION

         Office of Inspector General




Financial Statement Audit for Fiscal Year 2008
                               FEDERAL TRADE COMMISSION
                                      BALANCE SHEET
                              As of September 30, 2008 and 2007
                                     (Dollars shown in thousands)




                                                                        2008               2007
Assets (Note 2):
    Intragovernmental:
         Fund balance with Treasury (Note 3)                        $    86,792        $     85,848
         Investments (Note 5)                                           117,514                 -
         Accounts receivable, net (Note 6)                                   48                   23
    Total intragovernmental                                             204,354              85,871

     Cash and other monetary assets (Note 4)                             10,485             123,309
     Accounts receivable, net (Note 6)                                   87,982             125,185

     General property and equipment, net (Note 7)                        15,098              11,655

Total assets                                                        $   317,919        $    346,020


Liabilities:
     Intragovernmental:
               Accounts payable                                     $        21        $      1,557
               Other (Note 9)                                            17,028               2,651
     Total intragovernmental                                             17,049               4,208

     Accounts payable                                                    15,591               5,879
     Accrued redress receivables due to claimants                        87,800             123,974
     Redress collected but not yet disbursed                             85,021              80,180
     Divesture fund due                                                  45,485              44,570
     Other (Note 9)                                                      16,897              14,606
     Total liabilities (Note 8 and Note 9)                              267,843             273,417

Net position:
    Unexpended appropriations - other funds                                 -                   -
    Cumulative results of operations - other funds                       50,076              72,603
    Total net position                                              $    50,076        $     72,603

Total liabilities and net position                                  $   317,919        $    346,020




                    The accompanying notes are an integral part of these statements.
                          FEDERAL TRADE COMMISSION
                            STATEMENT OF NET COST
                 For the years ended September 30, 2008 and 2007
                                (Dollars shown in thousands)




                                                                    2008                 2007
Program costs:
    Maintain Competition (MC) Strategic Goal:
        Gross costs (Note 12)                                  $     104,853         $     97,916
        Less: earned revenue (Note 13)                              (103,192)            (145,285)
        Net program costs (revenue)                                    1,661              (47,369)


    Consumer Protection (CP) Strategic Goal:
       Gross costs (Note 12)                                         140,705             126,662
       Less: earned revenue (Note 13)                                (16,202)            (21,675)
       Net program costs (revenue)                                   124,503             104,987

Net cost of operations                                         $     126,164         $    57,618




                  The accompanying notes are an integral part of these statements.
                            FEDERAL TRADE COMMISSION
                     STATEMENT OF CHANGES IN NET POSITION
                   For the years ended September 30, 2008 and 2007
                                 (Dollars shown in thousands)



                                                                    2008              2007



Cumulative Results of Operations:
   Beginning balance, adjusted                                  $     72,603      $    49,121

Budgetary Financing Sources:
        Appropriations used                                           96,226           73,688

Other Financing Sources (non-exchange):
         Imputed financing                                             7,411            7,412

    Total Financing Sources                                          103,637           81,100
    Less: Net Cost of Operations                                     126,164           57,618
    Net Change                                                       (22,527)          23,482

    Cumulative Results of Operations                                  50,076           72,603


Unexpended Appropriations:
   Beginning balance, adjusted                                             -                     14

Budgetary Financing Sources:
        Appropriations received                                       96,226           74,608
        Less: Appropriations transferred out                                               14
        Less: Other adjustments (recissions)                             -                920
        Less: Appropriations used                                     96,226           73,688

        Total Budgetary Financing Sources                                  -                 (14)

    Total Unexpended Appropriations                                        -                 -

    Net Position                                                $     50,076      $    72,603




                   The accompanying notes are an integral part of these statements.
                                  FEDERAL TRADE COMMISSION
                           STATEMENT OF BUDGETARY RESOURCES
                         For the years ended September 30, 2008 and 2007
                                         (Dollars shown in thousands)




                                                                                      2008            2007
Budgetary Resources:      (Note 15)
   Unobligated balance, brought forward, October 1:                             $     11,068      $    10,875
    Recoveries of prior year unpaid obligations                                        1,322             8,299
    Budget authority
        Appropriation                                                                 96,226           74,608
        Spending authority from offsetting collections
            Earned
                  Collected                                                          134,728          166,992
                  Change in receivables from Federal sources                              25              (32)
            Change in unfilled customer orders
                  Without advance from Federal sources                                   (53)                 84
            Previously unavailable                                                    28,561                 -

         Subtotal                                                                    259,487          241,652

    Nonexpenditure transfers, net, anticipated and actual                                -                 (14)
    Temporarily not available pursuant to public law                                 (15,357)          (28,561)
    Permanently not available                                                            -                (920)

     Total Budgetary Resources                                                  $    256,520      $   231,331
Status of Budgetary Resources:
     Obligations incurred
          Direct                                                                     243,186          219,376
          Reimbursable                                                                   271              887
          Subtotal                                                                   243,457          220,263
     Unobligated balance
          Apportioned                                                                 13,063             4,238
          Unobligated balance not available                                              -               6,830

   Total status of budgetary resources                                          $    256,520      $   231,331
Change in Obligated Balance:
   Obligated balance, net
        Unpaid obligations, brought forward, October 1                          $     44,815      $    47,250
        Less: Uncollected customer payments from
             Federal sources, brought forward, October 1                                (252)            (201)
        Total unpaid obligated balance, net                                           44,563           47,049

    Obligations incurred, net                                                        243,457           220,263
    Less: Gross outlays                                                             (230,862)         (214,399)
    Less: Recoveries of prior year unpaid
         obligations, actual                                                           (1,322)          (8,299)
    Change in uncollected customer payments
         from Federal sources (+/-)                                                          28              (52)
    Obligated balance, net , end of period
         Unpaid obligations                                                           56,088           44,815
         Uncollected customer payments from Federal sources                             (224)            (253)
         Total, unpaid obligated balance, net, end of period                          55,864           44,562
Net Outlays
    Net Outlays:
         Gross outlays                                                               230,862           214,399
         Less: Offsetting collections                                               (134,728)         (166,992)
         Less: Distributed offsetting receipts                                       (55,014)           (5,962)

         Net Outlays                                                            $     41,120      $    41,445


                               The accompanying notes are an integral part of these statements.
                                          FEDERAL TRADE COMMISSION
                                      STATEMENT OF CUSTODIAL ACTIVITY
                                 For the years ended September 30, 2008 and 2007
                                                       (Dollars in thousands)




                                                                    MC              CP              2008           2007
Revenue Activity: (Note 17)
   Sources of Collections:
       Premerger Filing Fees (Net of Refunds) (a)              $    102,916     $       -       $   102,916    $   144,561
       Civil Penalties and Fines (b)                                    -            13,475          13,475          5,562
       Redress (c)                                                      -           101,859         101,859         71,748
       Investment Interest                                              -               412             412            -
       Divestiture Fund (d)                                             915             -               915          1,516
       Funeral Rule Violations                                          -               187             187              31
       Court Registry                                                   -             3,072           3,072            359
   Total Cash Collections                                           103,831         119,005         222,836        223,777

    Accrual Adjustments (e)                                             -           (37,212)        (37,212)       (11,783)
    Total Custodial Revenue                                    $    103,831     $    81,793     $   185,624    $   211,994

Disposition of Collections: (Note 17)
    Transferred to Others:
          Treasury General Fund                                         215          68,459          68,674         11,436
          Department of Justice                                      87,559             -            87,559        154,787
          Receivers (f)                                                 -               -               -                3
          Redress to Claimants (g)                                      -            33,313          33,313         41,304
          Contractor Fees Net of Interest Earned (h)                    -            12,119          12,119          3,826
          Investment Expense                                            -                 37              37           -
          Attorney Fees                                                 -               236             236             19
          Court Registry                                                -               -               -              199

    (Increase)/Decrease in Amounts Yet to be Transferred             (16,057)        32,371          16,314           (420)

Net Custodial Activity                                          $        -      $        -      $       -      $          -




                              The accompanying notes are an integral part of these statements
                                                                                                                                                      Exhibit A

                                                      FEDERAL TRADE COMMISSION
                                                Notes to the Statements of Custodial Activity
                                                            Accrual Adjustments
                                                        September 30, 2008 and 2007
                                                               (Dollars in thousands)




                                                         -------------------------------CP--------------------------------       2008             2007
Part 1                                                 Civil Penalty                Redress                Subtotal CP           Total            Total

Judgments Receivable - Net Beginning                   $         1,211         $       123,974          $        125,185     $     125,185    $     136,968

Add:

 Current Year Judgments (Note 17j)                             14,399                  151,706                   166,105           166,105          256,019
 Prior Year Recoveries (Note 17k)                                 -                      3,865                     3,865             3,865              857

Less:

 Collections by FTC/Contractors/ Receivers                    (13,475)                (101,859)                 (115,334)         (115,334)         (77,310)
 Collections by Court Registry                                                          (3,072)                   (3,072)           (3,072)             -
 Collections by DOJ for Litigation Fees/Other                     (416)                    -                        (416)             (416)            (169)

Less:

 Adjustments to Allowance (Note 17 l)                           (1,546)                 (86,814)                 (88,360)          (88,360)        (191,180)

Judgments Receivable - Net, Ending                     $           173         $         87,800         $         87,973     $      87,973    $     125,185

Part 2

Judgments Receivable - Net Ending                      $           173         $        87,800          $         87,973     $      87,973    $     125,185
Judgments Receivable - Net Beginning                             1,211                 123,974                   125,185           125,185          136,968

Accrual Adjustment                                     $        (1,038)        $        (36,174)        $        (37,212)    $     (37,212)   $     (11,783)
                                                                                                                                                                Exhibit B

                                                                 FEDERAL TRADE COMMISSION
                                                           Notes to the Statements of Custodial Activity
                                                                        Change in Liability
                                                                   September 30, 2008 and 2007
                                                                         (Dollars in thousands)




                                                           MC                                                            CP
                               Pre-Merger    Divestiture        Civil Penalty     Subtotal MC     Civil Penalty        Redress       Subtotal-CP        Total

Liabilities @ 09/30/08         $    15,357   $    45,485        $          -      $      60,842   $         173    $      172,821    $   172,994    $    233,836

Liabilities @ 09/30/07                215         44,570                   -             44,785            1,211          204,154        205,365         250,150

Change in Liability Accounts   $    15,142   $      915         $          -      $      16,057   $     (1,038)    $      (31,333)   $   (32,371)   $    (16,314)
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2008 and 2007
                             (Dollars shown in thousands)



Note 1 – Summary of Significant Accounting Policies

(a)    Reporting Entity

The Federal Trade Commission (FTC) is an independent United States (U.S.) Government
agency, established by the Federal Trade Commission Act of 1914. The FTC enforces a
variety of federal antitrust and consumer protection laws. The agency is headed by five
Commissioners, nominated by the President and confirmed by the Senate, each serving a
seven-year term. The President chooses one Commissioner to act as Chairman. No more
than three Commissioners can be of the same political party.

The FTC has three major bureaus: The Bureau of Competition (BC), which supports the
strategic goal of maintaining competition; the Bureau of Consumer Protection (BCP), which
supports the strategic goal of protecting consumers, and the Bureau of Economics (BE),
which supports both bureaus and strategic goals. Additionally, various Offices provide
mission support functions and services.

The majority of FTC staff is located in Washington DC; however, the FTC's regions cover
seven geographic areas. The regional offices work with the BC and BCP to conduct
investigations and litigation; provide advice to state and local officials on the competitive
implications of proposed actions; recommend cases; provide local outreach services to
consumers and business persons; and coordinate activities with local, state, and regional
authorities. The regional offices frequently sponsor conferences for small businesses, local
authorities, and consumer groups.

The financial statements include the accounts of all funds under the FTC’s control. As
further described throughout these notes, in addition to appropriations received for salaries
and necessary expenses, the FTC maintains control over funds that are primarily comprised
of proceeds derived from court ordered judgments and settlements held for subsequent
distribution to approved claimants. These proceeds are considered non-entity and are
reported as such on the Balance Sheet and related activity is reported on the Statement of
Custodial Activity.

(b)    Fund Accounting Structure

The FTC’s financial activities are accounted for using various funds (i.e., Treasury Account
Symbols (TAS)). They include the following for which the FTC maintains financial records:

General Fund TAS 29X0100 consists of salaries and expense appropriation accounts used
to fund agency operations and capital expenditures. Offsetting collections received during
the year are also recorded in the general fund. (See Note 13 - Exchange Revenues.)

Deposit Fund TAS 29X6013 consists of monies held temporarily by the FTC as an agent
for others (e.g. redress funds) prior to distribution through the consumer redress program.
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2008 and 2007
                             (Dollars shown in thousands)



Suspense Fund TAS 29F3875 represent receipts awaiting proper classification, or held in
escrow, until ownership is established and proper distributions can be made. This fund was
discontinued in fiscal year 2008 due to new Treasury regulations.

Miscellaneous Receipt Accounts TAS 29 1040 and 29 3220 reflect civil penalties and other
miscellaneous receipts that by law are not retained by the FTC. Cash balances are
automatically transferred to the general fund of the Treasury at the end of each fiscal year.

(c)    Basis of Accounting and Presentation

The accompanying financial statements present the financial position, net cost of operations,
changes in net position, budgetary resources, and custodial activities of the FTC. As noted
above, the FTC maintains a single fund to account for salaries and all necessary expenses.
Further, there are no intra-entity transactions with any other fund (e.g. deposit fund) that
would require eliminating entries to present consolidated statements. Accordingly the
statements are not labeled consolidated nor is the Statement of Budgetary Resources
presented as combined. The financial statements have been prepared from the accounting
records of the FTC on an accrual basis, in conformity with generally accepted accounting
principles (GAAP) of the United States of America and with the form and content of
financial statements specified by the Office of Management and Budget (OMB) Circular A-
136, Financial Reporting Requirements (as revised June 2008). GAAP for Federal entities
incorporate the standards prescribed by the Federal Accounting Standards Advisory Board.

The preparation of financial statements in conformity with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities at the date of the financial statements and the reported
amounts of revenues and expenses during the reporting period. Actual results could differ
from those estimates.

Certain amounts have been reclassified to reflect the change in method of classifying
obligations from budgetary resources derived from offsetting collections of user fees from
non-federal sources. Obligations incurred attributable to resources from user fees are
categorized as direct obligations. The change is consistent with OMB guidance for
reporting offsetting collections as specified in OMB Circular A-11. The change is reflected
in external reports resulting in a change in the amount of obligations reported as direct and
reimbursable on the Statement of Budgetary Resources and accompanying notes. Other
reclassifications to prior-year balances have been made in the accompanying financial
statements to make disclosures consistent with those of the current year.

(d)    Budget Authority

Congress passes appropriations annually that provide the FTC with authority to obligate

2
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2008 and 2007
                             (Dollars shown in thousands)



funds for necessary expenses to carry out mandated program activities. These funds are
available until expended, subject to OMB apportionment and to Congressional restrictions
on the expenditure of funds. Also, the FTC places internal restrictions on fund expenditures
to ensure the efficient and proper use of all funds. Appropriated funding is derived from
various revenues and financing sources. The Statement of Budgetary Resources reflects the
single general fund (e.g. TAS 29X0100) for which the FTC has budget authority.

(e)    Fund Balance with Treasury

 The FTC’s Fund Balance with Treasury includes appropriated funds and amounts that are
not invested but held in the deposit fund TAS 29X6013 for subsequent disbursement to
claimants. Amounts are carried forward until such time as goods or services are received
and payment is made or until the funds are returned to the Treasury (relative to
miscellaneous receipts or redress disgorgement). All cash receipts are deposited with
Treasury and all disbursements for payroll and vendor invoices are disbursed by the
Department of Treasury.

(f)    Investments

In protecting consumers, the FTC collects proceeds from defendants in accordance with
court ordered judgments and settlement agreements for consumer redress and holds these
proceeds in a deposit fund TAS 29X6013 established with the Department of Treasury. The
FTC also holds monies in its deposit fund in connection with a judgment that stipulates the
divestiture of assets by the defendant. Under an agreement with the Department of Treasury,
the portion of such judgments and settlements that are not immediately needed for cash
disbursements are invested in Treasury securities. (See Note 5 Investments.)

(g)    Cash and Other Monetary Assets

 The FTC’s consumer redress agents process claims and disburse redress proceeds to
approved claimants. Upon approval of the redress office, amounts necessary to cover current
disbursement schedules are held as cash in interest bearing custodial accounts. (See
accompanying Statement of Custodial Activity.)

(h)    Accounts Receivable

Accounts receivable consist of amounts due from other federal entities and from current and
former employees and vendors. Non-entity accounts receivable include uncollected civil
monetary penalties imposed as a result of the FTC’s enforcement activities and uncollected
redress judgments. Since the FTC does not retain redress receipts, a corresponding liability
is also recorded for these non-entity accounts receivable. Gross receivables are reduced to
net realizable value by an allowance for uncollectible accounts. (See Note 6 Accounts
Receivable.)
3
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2008 and 2007
                             (Dollars shown in thousands)




(i)    Accrued Liabilities and Accounts Payable

Accrued Liabilities and Accounts Payable represent a probable future outflow or other
sacrifices of resources as a result of past transactions or events. Liabilities are recognized
when they are incurred, regardless of whether they are covered by budgetary resources.
Liabilities can not be liquidated without legislation that provides the resources to do so.
Also, the government, acting in its sovereign capacity, can abrogate FTC liabilities (other
than contracts). (See Note 8 for information on “Liabilities Not Covered by Budgetary
Resources” and Note 9 for information on “Other Liabilities”).

(j)    Employee Health Benefits and Life Insurance

FTC employees are eligible to participate in the contributory Federal Employees Health
Benefit Program (FEHBP) and the Federal Employees Group Life Insurance Program
(FEGLIP). The FTC contributes a percentage to each program to pay for current benefits.

(k)    Employee Retirement Benefits

FTC employees participate in either the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). Employees hired after December 31, 1983,
are covered by FERS and Social Security, while employees hired prior to January 1, 1984,
may elect to either join FERS or remain in CSRS. Approximately 19 percent of FTC
employees participate in CSRS. For employees participating in CSRS, the FTC contributes
seven percent of the employee’s gross earnings to the CSRS Retirement and Disability
Fund. For employees participating in FERS, the FTC contributes 11.2 percent to the Federal
Employees’ Retirement Fund. Employees participating in FERS are covered under the
Federal Insurance Contributions Act (FICA) for which the FTC contributes a matching
amount to the Social Security Administration. FTC contributions are recognized as current
operating expenses. The Thrift Savings Plan (TSP) is a defined contribution retirement
savings and investment plan for employees covered by either CSRS or FERS. Participating
employees may contribute any dollar amount or percentage of basic salary to TSP, not to
exceed an annual dollar amount of $15,500, for 2008. CSRS participating employees do not
receive a matching contribution from the FTC. FERS employees receive an agency
automatic one percent contribution of gross pay to the TSP. The FTC also matches 100
percent of the first three percent contributed and 50 percent of the next two percent
contributed. Such FTC contributions are recognized as current operating expenses. Although
the FTC contributes a portion for pension benefits and makes the necessary payroll
withholdings, it is not responsible for managing contribution refunds, employee’s retirement
benefits, or the retirement plan assets. Therefore, the FTC financial statements do not report
CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which
may be applicable to employees. Such reporting is the responsibility of the Office of

4
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2008 and 2007
                                (Dollars shown in thousands)



Personnel Management (OPM). However, the FTC recognizes the full cost of providing
future pension benefits to covered employees at the time the employees’ services are
rendered. OPM has provided the FTC with certain cost factors that estimate the true service
cost of providing the pension benefits to covered employees. The cost factors used to arrive
at the service cost are 25.2 percent of basic pay for CSRS covered employees and 12 percent
of basic pay for FERS covered employees during fiscal years 2008 and 2007. The pension
expense recognized in the financial statements equals this service cost to covered employees
less amounts contributed by these employees. If the pension expense exceeds the amount
contributed by the FTC as employer, the excess is recognized as an imputed financing cost.
The excess total pension expense over the amount contributed by the agency must be
financed by OPM and is recognized as an imputed financing source, non-exchange revenue.

Pension expenses in 2008 and 2007 consisted of the following:

                                         2008 Total        2007 Total
                                       Pension Expense   Pension Expense

Civil Service Retirement System        $        3,474    $        3,774
Federal Employees Retirement System            10,949             9,617
Thrift Savings                                  4,276             3,707

                                       $       18,699    $       17,098




(l)     Other Post-Employment Benefits

FTC employees eligible to participate in the FEHBP and the FEGLIP may continue to
participate in these programs after their retirement. The OPM has provided the FTC with
certain cost factors that estimate the true cost of providing the post-retirement benefit to
current employees. The FTC recognizes a current cost for these and Other Retirement
Benefits (ORB) at the time the employee’s services are rendered. The ORB expense is
financed by OPM, and offset by the FTC through the recognition of an imputed financing
source. During fiscal years 2008 and 2007, the cost factors relating to FEHBP were $5,220
and $5,572, respectively, per employee enrolled. During fiscal years 2008 and 2007, the
5
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2008 and 2007
                             (Dollars shown in thousands)



cost factor relating to FEGLIP was 0.02 percent of basic pay per employee enrolled.

(m)    Net Position

The FTC’s net position is composed of the following:

Unexpended appropriations include the amount of unobligated balances and undelivered
orders. Unobligated balances are the amount of budgetary authority remaining after
deducting the cumulative obligations from the amount available for obligation.
Cumulative results of operations represent the net results of operations since inception, the
cumulative amount of prior period adjustments, the remaining book value of capitalized
assets, and future funding requirements.

(n)    Revenues and Other Financing Sources

The FTC’s revenues are derived from spending authority from offsetting collections and
from direct appropriation. Spending authority from offsetting collections is comprised of
amounts received for services performed under reimbursable agreements with other Federal
agencies and amounts received from the collection of fees under the authority of the Hart-
Scott-Rodino Antitrust Improvements (HSR) Act of 1976 and the Do-Not-Call
Implementation Act. Revenue is recognized (accrued) when services are performed under
reimbursable agreements. Revenues from fees are recognized when collected. All of FTC’s
offsetting collections are exchange revenues. (See Note 13 Exchange Revenues.)

In addition to exchange revenue, the FTC receives financing sources through direct
appropriation from the general fund of the Treasury to support its operations. A financing
source, appropriations used, is recognized to the extent these appropriated funds have been
consumed. The FTC received a financing source in the form of a direct appropriation that
represented approximately 40 percent of total revenues and financing sources realized in
fiscal year 2008 and 30 percent in fiscal year 2007.

(o)    Methodology for Assigning Cost

Total costs are allocated to each strategic goal based on two components: the direct costs
charged to each strategic goal and the indirect costs attributed to each strategic goal, based
on the percentage of direct FTE used by each strategic goal.




6
                                     FEDERAL TRADE COMMISSION
                                      Notes to the Financial Statements
                              For the Years Ended September 30, 2008 and 2007
                                        (Dollars shown in thousands)



Note 2 – Non-entity Assets

The following summarizes non-entity assets as of September 30, 2008 and 2007:

                                                                      2008                    2007
Intragovernmental:
       Fund balance with T reasury                              $            2,507      $        1,656
       Investments (Note 5)                                               117,514                    -
T otal intragovernmental                                                  120,021                1,656



Cash and other monetary assets (Note 4)                                     10,485             123,309
Accounts receivable                                                         87,982             125,185
T otal non-entity assets                                                  218,488              250,150
T otal entity assets                                                        99,431              95,870
T otal assets                                                   $         317,919       $      346,020




 Non-entity Fund Balance with Treasury is comprised of undisbursed premerger filing fees
(see Note 13) and deposits held for the consumer redress program. Cash and other
Monetary Assets consist of amounts on deposit with FTC distribution agents.


Note 3 – Fund Balance with Treasury

Fund balance with Treasury consisted of the following at September 30, 2008 and 2007:

                                                                2008               2007
Fund Balance:
       Appropriated funds (General)                           $ 84,285         $ 84,192
       Suspense fund - undisbursed premerger filing fees              -                215
       Deposit funds - redress                                      2,507             1,441
                  T otal                                      $ 86,792         $ 85,848


Status of Fund Balance with T reasury                           2008               2007
       Unobligated balance
                Apportioned                                   $ 13,063         $      4,238
                Unavailable                                           -               6,830
       T emporarily not available pursuant to Public Law        15,357               28,561
       Obligated balance not yet disbursed                      55,865               44,563
       Non-Budgetary fund balance with T reasury
                Suspense fund - undisbursed HSR filing fees           -                215
                Deposit funds - redress                             2,507             1,441
                  T otal                                      $ 86,792         $ 85,848



7
                                 FEDERAL TRADE COMMISSION
                                  Notes to the Financial Statements
                          For the Years Ended September 30, 2008 and 2007
                                    (Dollars shown in thousands)



Obligated Balance not yet Disbursed includes accounts payable and undelivered orders that
have reduced unexpended appropriations but have not yet decreased the cash balance on
hand. Temporarily not available pursuant to Public Law represents offsetting collections in
excess of appropriated resources. (The amount reported as obligated balance not yet
disbursed for FY 2008 differs from the statement of budgetary resources by $1 due to
rounding.)

 Other Information The $2.5 million in deposit funds (redress) above are not available to
finance FTC activities and are classified as non-entity assets, and a corresponding liability is
recorded.


Note 4 – Cash and Other Monetary Assets

In connection with the consumer redress program, cash amounts necessary to cover current
disbursement schedules are held at financial institutions in interest bearing accounts
pursuant to court orders and are reported as non-entity assets. A corresponding liability is
recorded for these assets. The FTC’s consumer redress agents process claims and disburse
redress proceeds to claimants upon approval of the redress office. (See accompanying
Statement of Custodial Activity.)

Cash and other monetary assets consisted of the following as of September 30, 2008 and
2007:

                                          2008       2007


Other Monetary Assets:
       Redress contractors              $ 10,485   $ 78,739
       Divestiture fund                      -       44,570
T otal other monetary assets            $ 10,485   $ 123,309




Note 5 – Investments

Collections against monetary judgments are deposited in a deposit fund (29X6013) with the
Department of Treasury. Funds not needed to cover immediate disbursements are invested
in special Government Account Series (GAS) securities under an agreement with the Bureau
of Public Debt. The GAS is non-marketable market based Treasury securities that are not
traded on any securities exchange but mirror the prices of particular Treasury securities
trading in the Government securities market.


8
                                 FEDERAL TRADE COMMISSION
                                  Notes to the Financial Statements
                          For the Years Ended September 30, 2008 and 2007
                                    (Dollars shown in thousands)




Investments consisted of the following as of September 30, 2008:

                                     Amounts for 2008 Balance Sheet Reporting


                                                    Amortized                                                 Market
                                     Amortization   (Premium)        Interest   Investment       Other         Value
                           Cost        Method       Discount     Receivable        Net       Adjustments     Disclosure
    Intragovernmental:
    Securities:
    Non-Marketable:
      Market-Based       $ 117,514                  $      -     $          -   $ 117,514    $           -   $ 117,514


    T otal               $ 117,514       n/a        $      -     $          -   $ 117,514    $           -   $ 117,514




Note 6 – Accounts Receivable

Opening accounts receivable balances reflect the Federal Accounting Standards Advisory
Board (FASAB) standard for the recognition of losses using the collection criterion of
“more likely than not.” This criterion results in receivable balances that are more
conservatively stated than those valued by the private sector under generally accepted
accounting principles. The Board states that it is appropriate to recognize the nature of
federal receivables, which, unlike trade accounts of private firms or loans made by banks,
are not created through credit screening procedures. Rather, these receivables arise because
of the assessment of fines from regulatory violations. In these circumstances, historical
experience and economic realities indicate that these types of claims are frequently not fully
collectible.

The method used to estimate the allowance for uncollectible receivables consists of
individual case analysis by the attorney case manager with respect to the debtor’s ability and
willingness to pay, the defendant’s payment record, and the probable recovery amount
including the value of the sale of assets. Based on the aforementioned, cases are referred to
the Treasury Offset Program for collection activities after the receivable becomes six
months delinquent in payment.




9
                              FEDERAL TRADE COMMISSION
                               Notes to the Financial Statements
                       For the Years Ended September 30, 2008 and 2007
                                 (Dollars shown in thousands)



Accounts receivable consisted of the following as of September 30, 2008 and 2007:

                                      Gross             Allowance for
                                    Receivables      Uncollectible Accounts           2008 Net              2007 Net
 Entity assets:
 Intragovernmental -
   Accounts receivable          $              48     $                  -        $            48       $            23

 Non-entity assets:
 Accounts receivable            $              9      $                  -        $           9         $           -
 Consumer redress                        764,508                    676,708              87,800         $      123,974
 Civil penalties                           1,719                      1,546                 173                  1,211

 Total non-entity assets        $        766,236      $             678,254       $      87,982         $      125,185



Note 7 – General Property and Equipment, Net

FTC capitalizes property and equipment with an initial cost of $100 thousand or greater and
a useful life over two years. Such assets are depreciated using the straight-line method of
depreciation with service lives range from five to twenty years. Additionally, internal use
software development and acquisition costs of $100 thousand or greater are capitalized as
software development-in-progress until the development stage has been completed and the
software successfully tested. Upon completion and testing, software development-in-
progress costs are reclassified as internal use software costs and amortized using the
straight-line method over the estimated useful life of three years. Purchased commercial
software that does not meet the capitalization criteria is expensed. Capitalized property and
equipment, net of accumulated depreciation, consisted of the following as of September 30,
2008 and 2007:


                              Service       Acquisition      Accumulated       2008 Net              2007 Net
        Asset Class             Life          Value          Depreciation     Book Value            Book Value

Equipment                    5-20 yrs      $         7,491   $     6,497      $          994        $        1,471
Leasehold improvements       10-15 yrs              11,297         2,334               8,963                 5,528
Software                     3 yrs                  10,612         5,471               5,141                 3,656
Software-in-development      5 yrs                    -              -                  -                    1,000

Total                                      $        29,400   $    14,302      $       15,098        $       11,655



Amounts reported as Equipment are comprised mostly of computer hardware and other
building equipment. The FTC does not own buildings, but rather, in partnership with GSA

10
                            FEDERAL TRADE COMMISSION
                             Notes to the Financial Statements
                     For the Years Ended September 30, 2008 and 2007
                               (Dollars shown in thousands)



leases both federally owned (by GSA) and commercial space. (See Note 10 Leases.) The
leasehold improvements above consist of improvements made to FTC headquarters building
located in Washington DC (which is owned by the GSA), and to FTC commercially leased
space also located in Washington DC.

Depreciation expense was $4,786 and $4,957 for fiscal years ending September 30, 2008
and 2007, respectively and is contained in the accumulated depreciation.


Note 8 – Liabilities Not Covered by Budgetary Resources

Intragovernmental liabilities and liabilities with the public not covered by budgetary
resources as of September 30, 2008 and 2007 are shown below:

(a)   Intragovernmental and With the Public

                                                                                   2008          2007
Intragovernmental:
      Undisbursed premerger fees liability                                     $    15,357   $       215
      Civil penalty collections due to Treasury                                        173         1,211
      FECA liability                                                                   361           391
      Total intragovernmental liabilities not covered by budgetary resources        15,891         1,817

With the Public:
      Accrued leave                                                                  9,058         8,206
      Actuarial FECA                                                                 1,925         1,965
      Undisbursed consumer redress                                                  85,021        80,180
      Divestiture fund due                                                          45,485        44,570
      Accrued consumer redress due to claimants                                     87,800       123,974
      Total liabilities not covered by budgetary resources                     $   245,180   $   260,712
      Total liabilities covered by budgetary resources                         $    22,663   $    12,705
      Total liabilities                                                        $   267,843   $   273,417


(b)   Other Information

Undisbursed Premerger Fees Liability represents undisbursed filing fees collected under the
Hart-Scott-Rodino (HSR) Antitrust Improvements Act of 1976, which are due to the
Department of Justice in a subsequent period.

Civil Penalty Collections Due to Treasury represents the corresponding liability relative to
accounts receivable due for civil monetary penalties, which will be transferred to the general
fund of the Treasury upon receipt.

Federal Employee’s Compensation Act (FECA) Liability represents the unfunded liability
11
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30, 2008 and 2007
                              (Dollars shown in thousands)



for workers compensation claims payable to the Department of Labor (DOL) and an
actuarial liability for future workers’ compensation claims. The actuarial liability is based on
the liability to benefits paid ratio provided by DOL multiplied by the average of benefits
paid over three years. Fiscal year 2007 liability was reclassified to be consistent with fiscal
year 2008 presentation. (See Note 1c.)

Accrued Leave represents a liability for earned leave and is reduced when leave is taken.
The balance in the accrued annual leave account is reviewed quarterly and adjusted as
needed to accurately reflect the liability at current pay rates and leave balances. Accrued
annual leave is paid from future funding sources and, accordingly, is reflected as a liability
not covered by budgetary resources. Sick and other leave is expensed as taken.

Undisbursed Consumer Redress represents a non-entity liability corresponding to amounts
reported as non-entity assets (including Cash, Investments and Fund Balance with Treasury
for TAS 29X6013). These funds are held until distributed to consumers or returned to
Treasury through disgorgement.

Divestiture Fund Due represents the corresponding liability offsetting the amount reported
as non-entity assets (investments) held by FTC pending divesture of assets pursuant to a
court ordered judgment. These funds are currently invested in Treasury Securities. (See
Note 5 Investments.)

Accrued Consumer Redress Due to Claimants represents the contra account for accounts
receivable due from judgments obtained as a result of the agency’s consumer redress
litigation.




12
                            FEDERAL TRADE COMMISSION
                             Notes to the Financial Statements
                     For the Years Ended September 30, 2008 and 2007
                               (Dollars shown in thousands)



Note 9 – Other Liabilities

The following summarizes Other Liabilities as of September 30, 2008 and 2007:

                                                            2008               2008
                                                         Non-Current          Current         2008 Total
     Intragovernmental:
           FECA liability                                 $      361      $         -     $           361
           Civil penalty collections due to Treasury                 35             138               173
           Accrued benefits                                      -                1,137             1,137
           Undisbursed premerger fees liability                  -               15,357            15,357
           Total Intragovernmental                               396             16,632            17,028

     Accrued leave                                               -                9,058             9,058
     Actuarial FECA                                             1,925               -               1,925
     Accrued salary                                               -               5,914             5,914
          Total other liabilities                         $     2,321     $      31,604   $        33,925

                                                            2007               2007
                                                         Non-Current          Current         2007 Total
     Intragovernmental:
           FECA liability                                 $      391      $         -     $           391
           Civil penalty collections due to Treasury             104              1,107             1,211
           Accrued benefits                                      -                  834               834
           Undisbursed premerger fees liability                  -                  215               215
           Total Intragovernmental                               495              2,156             2,651

     Accrued leave                                                -               8,206             8,206
     Actuarial FECA                                             1,965               -               1,965
     Accrued salary                                               -               4,435             4,435
          Total other liabilities                         $     2,460     $      14,797   $        17,257



For a description of FECA liability see Note 8 (b) and 1 (c).

Note 10 – Leases

Leases of commercial property are made through and managed by GSA. The Commission
has leases on four government-owned properties and ten commercial properties. The FTC’s
current leases expire at various dates through 2017. Two leases provide for tenant
improvement allowances totaling approximately $7,300 and provide that these costs be
amortized over the length of the leases. Under the terms of the leases, the FTC agrees to
reimburse the landlord for the principal balance of the unamortized portion of the tenant
improvement allowance in the event the agency vacates the space before lease expiration.
The FTC rents approximately 595,000 square feet of space in both commercial and
13
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2008 and 2007
                                (Dollars shown in thousands)



government-owned properties for use as offices, storage and parking. All FTC leases are
operating leases. Rent expenditures for the years ended September 30, 2008 and 2007, were
approximately $19,143 and $17,412, respectively.

Future minimum lease payments due under leases of government-owned property as of
September 30, 2008, are as follows:

Fiscal Year
2009                                          $     5,890
2010                                                  303
2011                                                  292
2012                                                  260
2013                                                  206
Total Future Minimum Lease Payments           $     6,951



Future minimum lease payments under leases of commercial property due as of September
30, 2008 are as follows:

Fiscal
2009                                          $    12,471
2010                                               12,598
2011                                               12,799
2012                                               10,847
2013                                                1,359
Thereafter                                          4,938
Total Future Minimum Lease Payments           $    55,012




Note 11 – Commitments and Contingencies

Contingencies The FTC is a party in various administrative proceedings, legal actions, and
claims brought by or against it. In the opinion of FTC management and legal counsel, the
ultimate resolution of these proceedings, actions, and claims, will not materially affect the
financial position or the results of operation of the FTC.


Note 12 – Intragovernmental Costs and Exchange Revenues

For ‘exchange revenue with the public,’ the buyer of the goods or services is a non-federal
entity. For ‘intragovernmental costs' the buyer and seller are both federal entities. If a
federal entity purchases goods or services from another federal entity and sells them to the

14
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30, 2008 and 2007
                              (Dollars shown in thousands)



public, the exchange revenue would be classified as ‘with the public,’ but the related costs
would be classified as ‘intragovernmental.’ The purpose of this classification is to enable
the federal government to provide consolidated financial statements, and not to match public
and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.

                                                                  2008            2007
Maintain Competition Strategic Goal:
     Intragovernmental gross costs                            $     24,696    $    24,449
     Public costs                                                   80,157         73,467
           Total Maintaining Competition costs                     104,853         97,916

     Intragovernmental earned revenue                                 (276)           (723)
     Public earned revenue                                        (102,916)       (144,562)
           Total Maintaining Competition net earned revenue       (103,192)       (145,285)
           Maintaining Competition net (revenue) costs               1,661         (47,369)

Consumer Protection Strategic Goal:
     Intragovernmental gross costs                                  33,140         31,626
     Public costs                                                  107,565         95,036
           Total Consumer Protection costs                         140,705        126,662

     Intragovernmental earned revenue                                  (42)           (73)
     Public earned revenue                                         (16,160)       (21,602)
           Total Consumer Protection net earned revenue            (16,202)       (21,675)
           Consumer Protection net (revenue) costs                 124,503        104,987

           Net cost of operations                             $    126,164    $    57,618



Note 13 – Exchange Revenues

Exchange revenues are earned through the collection of fees under the Hart-Scott-Rodino
(HSR) Act. This Act, in part, requires the filing of premerger notifications with the FTC and
the Antitrust Division of the Department of Justice (DOJ) and establishes a waiting period
before certain acquisitions may be consummated. Mergers with transaction amounts over
$50 million (adjusted annually based on the gross national product) require the acquiring
party to pay a filing fee. The filing fees are based on the transaction amount and follow a
three-tiered structure: $45, $125 and $280. The FTC collects all HSR premerger fees,
retains one-half and remits 50 percent to the DOJ Antitrust Division pursuant to public law.
Revenue is recognized upon collection of the appropriate fee and verification of proper
documentation.

Exchange revenues are also earned through the collection of fees for the national Do Not
Call Registry. This registry operates under Section 5 of the FTC Act, which enforces the
15
                            FEDERAL TRADE COMMISSION
                             Notes to the Financial Statements
                     For the Years Ended September 30, 2008 and 2007
                               (Dollars shown in thousands)



Telemarketing Sales Rule (TSR). The Do-Not-Call Implementation Act, Public Law No.
108-010, gives the FTC authority to establish fees sufficient to offset enforcement of the
provisions related to the Do Not Call Registry. Telemarketers are required to pay an annual
subscription fee and download from the Do Not Call Registry database a list of telephone
numbers of consumers who do not wish to receive calls. Fees are based on the number of
area codes downloaded. Effective October 1, 2008, the minimum charge decreased from $62
to $54 to download one area code. The maximum charge decreased from $17,050 to
$14,850 for all area codes within the United States. Revenue is recognized when collected
and the Telemarketer is given access to the requested data.

Exchange revenue is also earned for services provided to other government agencies
through reimbursable agreements. The FTC recovers the full cost of services, primarily
salaries and related expenses. Revenue is earned at the time the expenditures are incurred
against the reimbursable order. All exchange revenues are deducted from the full cost of the
FTC’s programs to arrive at net program cost.

Exchange revenue consisted of the following:

                                    2008           2007

HSR premerger filing fees       $   102,917    $   144,562
Do Not Call registry fees            16,159         21,602
Reimbursable agreements                 318            796

Total                           $   119,394    $   166,960




16
                             FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                      For the Years Ended September 30, 2008 and 2007
                                (Dollars shown in thousands)



Note 14 – Apportionment Categories of Obligations Incurred: Direct vs.
Reimbursable Obligations

Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Statement of Budgetary Resources in 2008 and 2007
consisted of the following:

                                                    2008             2007

Direct Obligations:
    Category A                                  $   243,186      $   219,376

Reimbursable Obligations:
    Category A                                             -                -
    Category B                                             271              887
    Total Reimbursable Obligations                         271              887

     Total                                      $   243,457      $   220,263



Prior year direct and reimbursable obligations have been reclassified to reflect a change in
the classification of obligations incurred. Obligations incurred attributable to offsetting
collections from user fees have been reclassified as direct obligations pursuant to OMB
Circular A-11. (See Note 1(c).)


Note 15 – Explanation of Differences between the Statement of Budgetary
Resources and the Budget of the United States Government

There are no material differences between amounts reported in the Statement of Budgetary
Resources and the actual amounts reported in the Budget of the United States Government.


Note 16 – Explanation of Differences between Liabilities Not Covered By
Budgetary Resources and Components Requiring or Generating Resources
in Future Periods

FECA Liability and Accrued Leave The changes in both of these balances between FY
2008 and FY 2007 are reflected as part of Components requiring or Generating Resources in
Future Periods in Note 19, Reconciliation of Net Cost of Operations to Budget. The
increase in Accrued Leave of $852,000 is included in the increase in Annual Leave Liability
line on the Statement of Financing, and the increase in FECA Liability of $70 is included in
17
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30, 2008 and 2007
                              (Dollars shown in thousands)



the “Other” line as part of the resources that fund future periods.


Note 17 – Custodial Activities

The FTC functions in a custodial capacity with respect to revenue transferred or transferable
to recipient government entities or the public. These amounts are not reported as revenue to
the FTC. The major components of the FTC’s custodial activities are discussed below. For
its custodial activities, FTC accrues accounts receivable and a corresponding liability when
a judgment is received from courts or a settlement is reached. Administrative expenses are
recognized when incurred.

(a)    Premerger Filing Fees

All Hart-Scott-Rodino (HSR) premerger filing fees are collected by the FTC pursuant to
section 605 of Public Law No. 101-162, as amended, and are divided evenly between the
FTC and the DOJ. The collected amounts are then credited to the appropriations accounts of
the two agencies (FTC’s "Salaries and Expenses" and DOJ’s "Salaries and Expenses,
Antitrust Division"). During fiscal years 2008 and 2007 FTC collected $205,833 and
$289,122 respectively, in HSR premerger filing fees. Total collections in the amount of
$102,916 were retained for distribution, of which $87,559 of this collection was transferred
to DOJ in 2008 and $144,561 in 2007. As of September 30, 2008 the undistributed
collections remaining in the amount of $15,357 represents amounts to be transferred to DOJ
in a future period.

(b)    Civil Penalties and Fines

Civil penalties collected in connection with the settlement or litigation of the FTC’s
administrative or federal court cases are collected by either the FTC or DOJ as provided for
by law. DOJ assesses a fee equivalent to three percent of amounts collected before remitting
them to the FTC. The FTC then deposits these collections into the Treasury. Civil penalties
collected also include amounts collected for undecided civil penalty cases are held until final
disposition of the case.

(c)    Redress

The FTC obtains consumer redress in connection with the settlement or litigation of both its
administrative and its federal court cases. The FTC attempts to distribute funds thus
obtained to consumers whenever possible. If consumer redress is not practical, the funds are
paid (disgorged) to the Treasury, or on occasion, other alternatives, such as consumer
education, are explored. Major components of the program include eligibility determination,
disbursing redress to claimants, and accounting for the disposition of these funds.
18
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30, 2008 and 2007
                              (Dollars shown in thousands)



Collections made against court-ordered judgments totaled $101,859 and $71,748 during
fiscal years 2008 and 2007, respectively.

The sources of these collections are as follows:

                            2008            2007

Agents                  $        22     $    22,761
Receivers                       568           6,740
FTC                         101,269          42,247

Total                   $   101,859     $    71,748



(d)     Divestiture Fund

One judgment (obtained by the FTC in support of its strategic goal to maintain competition)
stipulates the divestiture of assets by the defendants into an interest-bearing account to be
monitored by the agency. The account balance represents principal and related interest held
in the Treasury’s Bureau of Public Debt. A corresponding liability is recorded. Net interest
earned in fiscal year 2008 and 2007, was $915 and $1,516 respectively.

Divestiture Fund activity in fiscal years 2008 and 2007 consisted of the following:

                            2008            2007

Beginning Balance       $     44,570    $    43,054

Interest                       1,547          2,228
Expense                         (632)          (712)
Net Total                        915          1,516

Ending Balance          $     45,485    $    44,570



(e)     Accrual Adjustments

These adjustments represent the difference between the agency’s opening and closing
accounts receivable balances. Accounts receivable are the funds owed to the agency (as a
custodian) and ultimately to consumers or other entities. See Exhibit A for computation of
accrual adjustments to the Statement of Custodial Activity.


(f)     Receivers
19
                          FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                   For the Years Ended September 30, 2008 and 2007
                             (Dollars shown in thousands)




Funds forwarded to receivers for distribution to consumers was $0 and $3 for fiscal year
2008 and 2007, respectively.

(g)    Redress to Claimants

Redress to claimants consists of amounts distributed to consumers by the FTC, one of its
contracted agents, the court appointed receiver, or the defendant. In fiscal year 2008 a total
of $33,313 was distributed to consumers: $32,745 was paid by the FTC and its contracted
agents, and $568 was paid by receivers. In fiscal year 2007, a total of $41,304 was
distributed to consumers: $34,564 was paid by the FTC and its contracted agents, and
$6,740 was distributed by receivers.

(h)    Contractor Fees Net of Interest Earned

Immediately prior to distribution to claimants, investments in Treasury securities are
liquidated and transferred to one of the Agency’s redress agents for distribution to
consumers. These funds are deposited in interest-bearing custodial accounts at a financial
institution approved by Treasury Financial Reserve Board. Earnings on the deposits are
used to help fund administrative expenses. Administrative expenses are also paid from
judgment proceeds in accordance with court orders. Agent expenses for the administration
of redress activities and funds management amounted to $13,273 and $6,896 during the
years ended September 30, 2008 and 2007, respectively. Interest earned was $1,154 and
$3,070 during fiscal years 2008 and 2007 respectively, with the difference of $12,119 and
$3,826 representing net expense.

(i)    Change in Liability Accounts

Liability accounts contain funds that are in the custody of the agency or its agents, and are
owed to others (consumers, receivers for fees, and/or the DOJ). See Exhibit B for the
computation of liability account changes.

(j)    Current Year Judgments

A judgment is a formal decision handed down by a court. Redress judgments include
amounts that defendants have agreed, or are ordered to pay, for the purpose of making
restitution to consumers deemed to have been harmed by the actions of the defendant(s) in
the case. For purposes of presentation in Exhibit A, redress judgments include cases in
which the FTC, or one of its agents, is directly involved in the collection or distribution of
consumer redress. In fiscal years 2008 and 2007 the agency obtained and reported in
Exhibit A monetary redress judgments against defendants totaling $151,706 and $250,076,
respectively. (This amount excludes civil penalties.)

20
                           FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30, 2008 and 2007
                              (Dollars shown in thousands)




The FTC does not include in the presentation of Exhibit A current redress judgment cases in
which the FTC, or one of its agents, is not directly involved with the collection or
distribution of consumer redress. These are cases in which the defendant, or other third
party, has been ordered to pay redress directly to the consumers. In most of these cases, the
judgment has ordered redress in the form of refunds or credits.

The agency also obtained civil penalty judgments of $14,369 and $5,943 in fiscal years 2008
and 2007, respectively.

(k)    Treasury Referrals and Recoveries

Monetary judgments six months or more past due are referred to the Treasury for follow-up
collection efforts in keeping with the Debt Collection Improvement Act of 1996 (DCIA).
Treasury’s Debt Management Services (DMS) administers the program, and deducts 18
percent from amounts ultimately collected for its fee. Collections, net of fees, are returned to
the FTC for distribution to either consumers, in the form of redress, or to the general fund of
the Treasury as disgorged amounts. In fiscal years 2008 and 2007, approximately $67 and
$200 (net of fees) were collected by DMS based on FTC referrals and are reported as
collections on the Statement of Custodial Activity. The FTC refers to DMS only those cases
as defined in DCIA. This excludes cases that are in receivership, or bankruptcy or foreign
debt. During 2008 and 2007, approximately $50,951 and $600 were referred to the DMS for
collection.

Collections for cases that were written off in a previous year were approximately $3,865 and
$857 for fiscal years 2008 and 2007, respectively. (See Exhibit A.)

(l)    Adjustments to the Allowance

Adjustments to the allowance for redress, totaling $86,814 represent adjustments to the
provision for uncollectible amounts. Adjustments to the allowance for civil penalty, totaling
$1,546 represent adjustments to the provision for uncollectible amounts.


Note 18 – Undelivered Orders at the End of the Period

The amount of budgetary resources obligated for undelivered orders at the end of September
30, 2008 and 2007 is $33,427 and $31,634 respectively.




21
                               FEDERAL TRADE COMMISSION
                                Notes to the Financial Statements
                        For the Years Ended September 30, 2008 and 2007
                                  (Dollars shown in thousands)




Note 19 – Reconciliation of Net Cost of Operations to Budget
                                                                                        2008           2007

Resources Used to Finance Activities:
Budgetary Resources Obligated
    Obligations incurred                                                            $    243,457     $ 220,263
    Less: Spending authority from offsetting collections and recoveries                 (120,693)     (175,344)
    Obligations net of offsetting collections and recoveries                             122,764        44,919

Other Resources
    Imputed financing from costs absorbed by others                                        7,411         7,412
    Net other resources used to finance activities                                         7,411         7,412

     Total resources used to finance activities                                          130,175        52,331

Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided                                     (1,491)       1,988
    Resources that finance the acquistion of assets                                        (8,512)      (2,495)

     Total resources used to finance items not part of the net cost of operations         (10,003)        (507)

     Total resources used to finance the net cost of operations                          120,172        51,824

Components of the Net Cost of Operations that will not Require or
   Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                          852        511
   Other                                                                                        70         44
   Total components of Net Cost of Operations that will require or
    generate resources in future periods                                                       922        555

     Components not Requiring or Generating Resources:
     Depreciation and amortization                                                         4,786         4,957
     Losses on Disposition of Assets - Other                                                 284           282
     Total Components of Net Cost of Operations that will not require or
     generate resources                                                                    5,070         5,239

     Total components of net cost of operations that will not require or
     generate resources in the current period                                              5,992         5,794

     Net Cost of Operations                                                         $    126,164     $ 57,618




22
